              Collection Field Function Penalty Abatements
                Need Proper Documentation and Coding

                                 September 2005

                       Reference Number: 2005-30-139




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 23, 2005



      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Collection Field Function Penalty
                                    Abatements Need Proper Documentation and Coding
                                    (Audit # 200430017)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Penalty Abatement procedures. The overall objective of this review was to determine
      whether the Collection Field function (CFf)1 was effectively and consistently abating
      penalties based on reasonable cause.
      In summary, the IRS assesses penalties for various reasons related to the filing of tax
      returns and paying of taxes. When taxpayers do not file or pay their taxes timely, there
      are penalties assessed. The IRS has procedures in place that allow individuals to
      request that an assessed penalty be fully or partially abated (the monetary amount of
      the penalty will be eliminated or reduced). The IRS grants penalty abatements for
      various reasons, including the taxpayer showing a legitimate reason why the situation
      occurred that led to the penalty assessment. There are four categories in which the IRS
      allows relief from penalties: reasonable cause, statutory exception, administrative
      waiver, and correction of IRS error.
      This audit report focuses on reasonable cause abatements made by revenue officers
      (RO) in the CFf. Reasonable cause is based on all the facts and circumstances in each
      situation and allows the IRS to provide relief from a penalty that would otherwise be
      assessed. Reasonable cause relief is generally granted when a taxpayer exercises
      ordinary business care and prudence in determining his or her tax obligations but is

      1
       CFf is the unit in the Small Business/Self-Employed Division field offices consisting of revenue officers who have
      personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax returns.
                                                        2

unable to comply with those obligations. These abatements are high-risk transactions
because the ROs use some discretion in determining if a taxpayer is eligible for the
abatement based on the taxpayer’s circumstances.
Our review of 156 abatements, involving 151 taxpayers, showed that abatements were
consistent among offices; there were no unusual trends of 1 office having considerably
more or fewer abatements. Also, taxpayers received similar consideration regardless of
whether they had a representative.
However, 49 (31 percent) of the 156 abatements did not have either a sufficient
explanation for or documentation to support the abatement for reasonable cause. In
four abatements involving three taxpayers, the abatement was not appropriate because
the taxpayers requested the abatements due to a possible embezzlement; however,
there was not sufficient documentation to support that there was embezzlement. For
the other 45 of 49 abatements, we identified the following examples of incomplete
documentation: no Request for Adjustment (Form 3870) was available (although there
were comments in the Integrated Collection System (ICS)2 case histories that the
Form 3870 was prepared or the abatement was mentioned), managerial approval was
not documented, the reason for abatement was not documented on the Form 3870,
and/or taxpayer correspondence was not available when required.
One possible reason for the lack of documentation is that the files are not being
maintained properly after being sent from the field groups for processing and filing. It is
important to maintain the source documentation for penalty abatements. These are
high-risk transactions that need to be supported. Although it is possible the ROs
prepared and forwarded the necessary documents to the Case Processing function
based on the ICS history comments, without those documents it is impossible to know
whether there was a valid reason supported by a taxpayer letter and proper approval.
When documentation and approvals are not maintained, controls do not satisfactorily
prevent manipulation of the process. As a result, we plan to send confirmation letters to
taxpayers to verify the 49 abatements.
Also, management information on reasonable cause abatements is not reliable. The
IRS uses a computer coding system to identify the reasons for penalty abatements. A
primary code of RC 062 appears with the abatement transaction record for reasonable
cause abatements. Along with that primary code, there is also a secondary code that is
used to further explain the exact reason why the abatement meets the reasonable
cause criteria. Our review of a sample of 156 abatements showed there were
46 instances of incorrect coding. Twenty-seven instances were coded as reasonable
cause; however, they were not reasonable cause abatements. Nineteen instances had
secondary codes that were not reasonable cause codes. We further determined that,
from our population of 33,742 reasonable cause penalty abatements, a primary code of
RC 062 was used with an invalid secondary code in 6,221 abatements (18 percent).
Small Business/Self-Employed (SB/SE) Division management has informed us they

2
 The ICS is an IRS automated system used to control and monitor delinquent cases assigned to ROs in the IRS field
offices.
                                                        3

plan to submit a Request for Information Services (RIS)3 to place a systemic verification
on the IRS computer system that would allow only the specific secondary codes be
used with RC 062.
We recommended the Director, Collection, SB/SE Division, ensure managers forward
required supporting documentation for abatements and coordinate with the Director,
Campus Compliance Services, to ensure documentation is properly maintained. Also,
the Director, Campus Compliance Services, should ensure managers perform the
required reviews of reason code input until the new systemic controls are established.
The Director, Examination, SB/SE Division, should ensure the planned RIS is submitted
for the systemic verification that will allow only the proper secondary codes to be used
with RC 062.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations. The Director, Collection Policy, will issue a memorandum to remind
Collection field managers to review the required supporting documentation when the
Form 3870 is submitted for approval. The approved Form 3870 will be electronically
routed to Centralized Case Processing according to Internal Revenue Manual
procedures. Also, the Director, Collection Business Reengineering, will develop
controls to ensure that all supporting documentation is being maintained with the case
file, and conduct annual reviews to ensure that the supporting documentation is properly
maintained. In addition, the Director, Filing and Payment Compliance, will develop
controls to ensure that Centralized Case Processing managers perform the required
reviews of reasonable cause abatement requests to ensure the validity of the reason
code input. Finally, the Office of Penalty and Interest will submit the final RIS for
implementation no later than February 2006, with the expectation that programming will
be completed by January 15, 2007. Management’s complete response to the draft
report is included as Appendix VII.
Office of Audit Comment: Although SB/SE Division management agreed with the
recommendations, they did not agree that potentially $10.8 million in revenue could be
lost due to abatements not having supporting documentation available. While we agree
that potentially the abatements could be proper, we think it is impossible to know they
are proper without the supporting documentation being available. Therefore, there is a
possibility that revenue within the range reported could be lost.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.




3
    A RIS is a request to change programming on IRS computer systems.
   Collection Field Function Penalty Abatements Need Proper Documentation and Coding




                                                  Table of Contents


Background ............................................................................................... Page 1
Abatements Were Consistent Among Offices, and Taxpayers With
or Without Representation Received Similar Consideration...................... Page 2
Abatements Did Not Have Proper Documentation to Support the
Abatement for Reasonable Cause ............................................................ Page 4
         Recommendation 1: .........................................................................Page 6

Management Information on Reasonable Cause Abatements Is
Not Reliable............................................................................................... Page 7
         Recommendations 2 and 3: .............................................................Page 9

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures............................................................ Page 14
Appendix V – Four Categories for Relief From Penalties .......................... Page 16
Appendix VI – Request for Adjustment (Form 3870) ................................. Page 17
Appendix VII – Management’s Response to the Draft Report ................... Page 18
  Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                The Internal Revenue Service (IRS) assesses penalties for
Background
                                various reasons related to the filing of tax returns and
                                paying of taxes. When taxpayers do not file or pay their
                                taxes timely, penalties are assessed. For example, the IRS
                                assesses a penalty for failure to file a tax return by the date
                                prescribed (including any applicable extensions), unless it is
                                shown that the failure is due to reasonable cause and not due
                                to willful neglect. The same penalty process applies if any
                                tax shown on the return is not paid by the due date of that
                                return or if Federal Tax Deposits (FTD)1 are not deposited
                                timely.
                                The IRS has procedures in place that allow individuals to
                                request that an assessed penalty be fully or partially abated
                                (the monetary amount of the penalty will be eliminated or
                                reduced). The IRS grants penalty abatements for various
                                reasons, including the taxpayer showing a legitimate reason
                                why the situation occurred that led to the penalty
                                assessment. There are four categories in which the IRS
                                allows relief from penalties: reasonable cause, statutory
                                exception, administrative waiver, and correction of IRS
                                error.2 Based on IRS Collection function reports, penalties
                                totaling approximately $6 billion were abated in
                                Fiscal Year (FY) 2004.3
                                This audit report focuses on reasonable cause abatements
                                made by revenue officers (RO) in the Small Business/
                                Self-Employed (SB/SE) Division Collection Field function
                                (CFf).4 Reasonable cause is based on all the facts and
                                circumstances in each situation and allows the IRS to
                                provide relief from a penalty that would otherwise be
                                assessed. Reasonable cause relief is generally granted when
                                a taxpayer exercises ordinary business care and prudence in
                                determining his or her tax obligations but is unable to


                                1
                                  FTDs include advance payments made by employers of taxes imposed
                                under the Federal Insurance Contributions Act (FICA) and income taxes
                                withheld from their employees’ pay, and employers’ share of the FICA
                                tax. Generally, employers must deposit these taxes either once a month
                                or twice a week, depending on the aggregate amount of employment tax
                                reported in the 12-month period ending the preceding June 30.
                                2
                                  See Appendix V for explanations of these categories.
                                3
                                  IRS Collection Report 5000-104 for FY 2004.
                                4
                                  The CFf is the unit in the SB/SE Division field offices consisting of
                                ROs who have personal contacts with taxpayers to collect delinquent
                                accounts or secure unfiled tax returns.
                                                                                               Page 1
  Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                comply with those obligations. These abatements are high-
                                risk transactions because the ROs use some discretion in
                                determining if the taxpayer is eligible for the abatement
                                based on the taxpayer’s circumstances.
                                A taxpayer can request a reasonable cause penalty
                                abatement in various ways, including sending a letter to the
                                IRS, making a telephone contact, and working with the
                                employee who is assigned the case. If a taxpayer has a
                                delinquent tax case assigned to an RO in the CFf, the
                                taxpayer should request the abatement through that RO.
                                The taxpayer is required to request the abatement in writing
                                if the amount is greater than $250 per abatement or
                                $500 per tax period (multiple penalties could be assessed for
                                1 tax period). The RO is responsible for preparing a
                                Request for Adjustment (Form 3870)5 and providing a
                                complete statement explaining why the adjustment should
                                be made. The Form 3870 also includes the codes to be
                                input to the IRS computer system, dates, and assessment
                                amounts to be adjusted. Some of these items are prepared
                                by the RO and others are prepared by clerical support
                                employees.
                                This review was performed at the IRS SB/SE Division
                                Collection function in New Carrollton, Maryland; the
                                Plantation, Florida, CFf office; and the
                                Philadelphia, Pennsylvania, Campus6 Centralized Case
                                Processing function during the period June 2004 through
                                April 2005. The audit was performed in accordance with
                                Government Auditing Standards. Detailed information on
                                our audit objective, scope, and methodology is presented in
                                Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                We reviewed 156 reasonable cause penalty abatements
Abatements Were Consistent
                                totaling $917,343 that originated with ROs. These
Among Offices, and Taxpayers
                                abatements were part of a nationwide statistically valid
With or Without
                                sample selected from a population of 33,742 abatements
Representation Received
                                totaling $49,203,966.
Similar Consideration


                                5
                                 See Appendix VI for an example of Form 3870.
                                6
                                 The campuses are the data processing arm of the IRS. They process
                                paper and electronic submissions, correct errors, and forward data to the
                                Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                 Page 2
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                              The taxpayers included in our sample were small business
                              taxpayers that had filed an Employer’s Quarterly Federal
                              Tax Return (Form 941) and had penalties abated for
                              reasonable cause during May 1, 2003, through
                              April 30, 2004.7 Figure 1 identifies the dollar range for the
                              penalty abatements we reviewed.
                                             Figure 1: Dollar Ranges for Abatements
                                 Dollar Range for Penalty
                                         Abatements                Number of Abatements
                                         Under $250                             68
                                          $251- $500                            15
                                        $501- $1,000                            28
                                        $1001- $5,000                           33
                                      $5,001- $10,000                            8
                                      $10,001- $15,000                           2
                                     $15,001- $100,000                           1
                                        $100,001 over                            1
                                             Total                             156
                              Source: Treasury Inspector General for Tax Administration review of
                              156 penalty abatements and the Master File8 as of August 30, 2004.

                              Since the abatement process is somewhat judgmental, we
                              analyzed the number of abatements by CFf offices. We
                              determined that no unusual trends existed in which some
                              CFf offices were processing more abatements than the
                              others. Generally, the larger offices with more groups
                              processed a larger number of abatements.
                              Finally, the IRS Oversight Board was concerned that
                              taxpayers who do not have representatives are at a
                              disadvantage when it comes to requesting and receiving
                              abatements.9 Although we did not review any cases in an
                              attempt to identify abatement requests that were denied, our
                              review showed that taxpayers received satisfactory
                              consideration regardless of whether they had
                              representatives. One-half of the taxpayers in our sample
                              received abatements without having a representative, while
                              the other half had representatives.


                              7
                                We initially identified 226 abatements but later determined that not all
                              of these abatements originated from ROs, so we eliminated the 70 cases
                              that originated from a function other than the CFf.
                              8
                                The Master File is the IRS database that stores various types of
                              taxpayer account information. This database includes individual,
                              business, and employee plans and exempt organizations data.
                              9
                                IRS Oversight Board Public Meeting, January 29, 2002.
                                                                                                Page 3
    Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                  When taxpayers are assessed taxes, many times there are
Abatements Did Not Have Proper
                                  applicable penalties such as failure to file, failure to pay,
Documentation to Support the
                                  and failure to make FTDs. Taxpayers may request
Abatement for Reasonable Cause
                                  abatements of such penalties due to reasonable cause under
                                  certain circumstances. These circumstances include when
                                  taxpayers exercise ordinary business care and prudence in
                                  determining their tax obligations but are unable to comply
                                  with those obligations. Specific reasons can include:
                                  •    Standards (Federal Tax Regulations and IRS Policy
                                       Statements that contain specific criteria that may affect
                                       the assessment of penalties).
                                  •    Ordinary Business Care and Prudence.
                                  •    Death, Serious Illness, or Unavoidable Absence.
                                  •    Unable to Obtain Records.
                                  When ROs abate penalties for reasonable cause, the
                                  following documentation is required to support the
                                  abatement:
                                  •    Form 3870, which is used to provide a complete
                                       statement explaining why the adjustment should be
                                       made.
                                  •    Taxpayer Letter – If the amount of the abatement is
                                       greater than $250 per abatement or $500 per tax period,
                                       the taxpayer is required to submit a letter with sufficient
                                       detail to show that ordinary business care was exercised.
                                  •    An Integrated Data Retrieval System (IDRS)10
                                       Transaction Record Printout used by the RO to verify
                                       the amount of the abatement the taxpayer requested.
                                  Our review of 156 abatements, involving 151 taxpayers,
                                  showed that 49 (31 percent) did not have either a sufficient
                                  explanation for or documentation to support the abatement
                                  for reasonable cause. Four abatements, involving three
                                  taxpayers, were not appropriate. Each of the three taxpayers
                                  stated in his or her request for abatement that an employee
                                  had embezzled the company’s funds. However, IRS
                                  procedures state that the responsibility for depositing taxes

                                  10
                                    The IDRS is the IRS computer system capable of retrieving or
                                  updating stored information; it works in conjunction with a taxpayer’s
                                  account records.
                                                                                                  Page 4
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                              cannot be delegated. Therefore, if embezzlement is the
                              basis for the request for penalty removal, the taxpayer must
                              have sufficient supporting documentation of the
                              embezzlement, which could include filing criminal charges
                              against the employee accused of embezzlement. In these
                              three cases, there was no documentation supporting that
                              charges were filed, and the ROs did not verify whether the
                              taxpayer encountered fraud before allowing the abatement.
                              For the other 45 abatements, we identified the following
                              incomplete documentation:
                              •    In 20 abatements, no Form 3870 was in the case files.
                                   However, in 17 of these 20 instances, the Integrated
                                   Collection System (ICS) case history11 included a
                                   comment that 1 was prepared. For the three remaining
                                   instances, comments existed in the ICS case history
                                   explaining the abatement.
                              •    In five abatements, the Form 3870 either did not include
                                   the reason for the penalty abatement or have managerial
                                   approval documented on the Form. The Form 3870
                                   Handbook requires that the RO provide a complete
                                   statement explaining why the adjustment should be
                                   made and managers are required to approve the
                                   abatement.
                              •    In 20 abatements, taxpayer correspondence was not
                                   attached, and the abatement amount was over
                                   $250 per abatement or $500 per tax period. In addition
                                   to these 20, 15 of those listed above in the first bullet
                                   and 1 included in the second bullet also did not have the
                                   required taxpayer correspondence.
                              One possible reason for the lack of documentation is that the
                              files are not being maintained properly after being sent from
                              the field groups for processing. According to the
                              information in most of the ICS case histories, there was a
                              documented reason for the abatement and, in some
                              instances, a Form 3870 that was prepared. At some point in
                              the process, the Form 3870 and any supporting letter may
                              have been misplaced. Functional managers may not be

                              11
                                The ICS is an IRS automated system used to control and monitor
                              delinquent cases assigned to ROs in the IRS field offices. The ICS case
                              history documents the RO’s activity on a case.
                                                                                              Page 5
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                              verifying that all the documentation is maintained with the
                              abatement request.
                              It is important to maintain the source documentation for
                              penalty abatements. These are high-risk transactions that
                              need to be supported and approved. Although it is possible
                              the ROs prepared and forwarded the necessary documents
                              based on the ICS case history comments, without those
                              documents it is impossible to know whether there was a
                              valid reason supported by a taxpayer letter and proper
                              approval. When documentation and approvals are not
                              maintained, controls do not satisfactorily prevent
                              manipulation of the process. As a result, we plan to send
                              confirmation letters to taxpayers to verify the 49 abatements
                              discussed above.
                              When controls are not effective, the IRS may lose money
                              due to inappropriate penalty abatements. Based on our
                              statistically valid sample of abatements, we estimate
                              7,315 abatements involving approximately $10.8 million
                              may not have been appropriately documented. See
                              Appendix IV for details.

                              Recommendation

                              The Director, Collection, SB/SE Division, should:
                              1. Ensure managers forward the required supporting
                                 documentation for abatements to the Case Processing
                                 function and coordinate with the Director, Campus
                                 Compliance Services, to ensure documentation is
                                 properly maintained.
                              Management’s Response: The Director, Collection Policy,
                              will issue a memorandum to remind Collection field
                              managers to review the required supporting documentation
                              when the Form 3870 is submitted for approval. The
                              approved Form 3870 will be electronically routed to
                              Centralized Case Processing according to Internal Revenue
                              Manual (IRM) procedures. IRM 5.1.15 will be updated to
                              include appropriate instructions to ROs.
                              The Director, Collection Business Reengineering, will
                              develop controls to ensure that all supporting documentation
                              is being maintained with the case file and conduct annual

                                                                                    Page 6
    Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                  reviews to ensure that the supporting documentation is
                                  properly maintained.
                                  The IRS uses a computer coding system to identify the
Management Information on
                                  reasons for penalty abatements. When a reasonable cause
Reasonable Cause Abatements Is
                                  abatement is processed, employees should input a primary
Not Reliable
                                  code of RC 062. Along with that primary code, employees
                                  also select a secondary code that is used to further explain
                                  the exact reason why the abatement meets the reasonable
                                  cause criteria. Computer terminal input operators and their
                                  managers should ensure the correct codes are entered into
                                  the IRS computer system. IRS procedures state that, when
                                  RC 062 is used, only the following secondary codes should
                                  be used:
                                       Figure 2: Definitions of Secondary Reason Codes
                                       Penalty
                                       Reason
                                                                    Definition
                                        Code
                                       (PRC)
                                                 Taxpayer exercised ordinary business care and
                                         22
                                                 prudence/first-time filer
                                                 Death, serious illness, or unavoidable absence
                                         24      in immediate family of the party responsible
                                                 (Individual taxes)
                                         25      Records inaccessible
                                                 Death, serious illness, or unavoidable absence
                                         26      in immediate family of the party responsible
                                                 (Business taxes)
                                         30      Other (Acceptable Explanation)
                                         46      Y2K-related12 penalty relief
                                        50/51    User fee reversal13
                                  Source: Automated Data Processing and IDRS Information 2005 -
                                  Document 6209.




                                  12
                                     Y2K is a term that was used to describe a possible computer error
                                  when the dates changed from Calendar Year 1999 to 2000.
                                  13
                                     A User Fee is a fee that the IRS is authorized to charge for services
                                  provided by the agency such as processing an installment agreement.
                                                                                                     Page 7
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                              Our review of 156 abatements identified 46 instances of
                              incorrect coding.
                              •      There were 27 instances in which RC 062 was used
                                     incorrectly; the actions should have been coded with
                                     reasons from the other penalty relief categories listed in
                                     Appendix V, such as:
                                         o Statutory Exception - PRC 044.
                                         o Corrected/Amended return, Original return
                                           prepared by the Service14 (Substitute for
                                           Return/6020B) - PRC 013.
                                         o Service Error - PRC 045.
                                         o Taxpayer relied on practitioner or third-party
                                           advice - PRC 023.
                              •      There were 19 instances in which either the secondary
                                     codes used were not valid for use with RC 062 or a
                                     different secondary code should have been used.
                              We further determined that, over our population of 33,742, a
                              primary code of RC 062 was used with an invalid secondary
                              code in 6,221 (18 percent) of the abatements. One possible
                              reason is that there is currently no systemic verification that
                              allows only the proper secondary codes to be used with
                              RC 062. Another possible reason is that Case Processing
                              function managers did not ensure the proper coding was
                              used.
                              Management information for reasonable cause abatements
                              will not be reliable if the codes are not used correctly, and
                              trends will not be valid concerning the reasons abatements
                              are made. This affects the IRS’ ability to correctly report to
                              outside stakeholders the reasons for abatements and whether
                              abatements are consistently applied.
                              SB/SE Division management has informed us they plan to
                              submit a Request for Information Services (RIS)15 to place a
                              systemic verification on the IRS computer system that
                              would allow only specific secondary codes to be used with
                              RC 062. They plan to submit the RIS in October 2005; the
                              planned completion date is sometime in Calendar

                              14
                                   Service = IRS.
                              15
                                   A RIS is a request to change programming on IRS computer systems.
                                                                                             Page 8
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                              Year 2007. If this is done, we believe it will considerably
                              improve the controls over the coding process and the
                              management information available on penalty abatements.

                              Recommendations

                              The Director, Campus Compliance Services, should:
                              2. Ensure managers perform the required reviews of reason
                                 code input until the new systemic controls are
                                 established.
                              Management’s Response: The Director, Filing and Payment
                              Compliance, will develop controls to ensure that Centralized
                              Case Processing managers perform the required reviews of
                              reasonable cause abatement requests to ensure the validity
                              of the reason code input, and will update IRM procedures
                              appropriately.
                              The Director, Examination, SB/SE Division, should:
                              3. Ensure the planned RIS is submitted for the systemic
                                 verification that allows only the proper secondary codes
                                 to be used with RC 062.
                              Management’s Response: The Office of Penalty and
                              Interest will submit the final RIS for implementation no
                              later than February 2006 with the expectation that
                              programming will be completed by January 15, 2007.
                              Office of Audit Comment: Although SB/SE Division
                              management agreed with the recommendation, they did not
                              agree that potentially $10.8 million in revenue could be lost
                              due to abatements not having supporting documentation
                              available. While we agree that potentially the abatements
                              could be proper, we think it is impossible to know they are
                              proper without the supporting documentation being
                              available. Therefore, there is a possibility that revenue
                              within the range reported could be lost.




                                                                                     Page 9
    Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Collection Field function (CFf)1
was effectively and consistently abating penalties based on reasonable cause. Specifically, we:
I. Determined whether the CFf has effective procedures to ensure penalty abatements granted
   for reasonable cause to small business taxpayers are appropriate.
      A.   Obtained Internal Revenue Service (IRS) guidelines and procedures established for
           abating penalties for reasonable cause.
      B.   Discussed guidelines and expectations with Small Business/Self-Employed Division
           management. Also, interviewed designated contacts at the Philadelphia Campus2
           Compliance Services function and the Office of Penalty and Interest.
      C.   Determined whether there is a management information system used to monitor and
           track penalty abatements for reasonable cause and how it is used.
II. Determined whether revenue officers (RO) made proper determinations when abating
    penalties for reasonable cause and whether the decisions were adequately documented.
      A.   Selected a sample of cases with penalties abated due to reasonable cause that had been
           processed in the CFf.
           1.     Obtained the population of small business Employer’s Quarterly Federal Tax
                  Return (Form 941) penalty abatement cases processed from May 1, 2003,
                  through April 30, 2004, for four types of penalties: Delinquency Penalty,
                  Deposit Penalty, Miscellaneous Penalty, and Failure to Pay Tax Penalty. The
                  population was 33,742 abatements; dollars abated totaled $49,203,966.
           2.     Validated the data received by matching taxpayer information and penalty
                  abatements data from our extract to the IRS’ computer system data.
           3.     Selected a statistical sample of 226 penalty abatements using a 90 percent
                  confidence level, a precision of ±5 percent, and an expected error rate of
                  30 percent.




1
  The CFf is the unit in the Small Business/Self-Employed Division field offices consisting of revenue officers who
have personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax returns.
2
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 10
    Collection Field Function Penalty Abatements Need Proper Documentation and Coding

           4.     For the statistical sample selected in Step II.A.3, requested the Integrated
                  Collection System (ICS)3 case history and the Request for Adjustment
                  (Form 3870) documentation.
      B.   Reviewed 156 abatements to determine whether there was an adequate explanation for
           the penalty abatement and the decision was proper. We selected a statistically valid
           sample of 226 abatements, but as we performed our review, we determined that not all
           these abatements originated from ROs, so we had to eliminate some cases. As a result,
           our final sample size for abatements made by ROs was 156 abatements totaling
           $917,343.
           1.     Determined whether the correct Penalty Reason Code was used.
           2.     Determined whether the taxpayer signed the Form 3870 or submitted a signed
                  request.
           3.     Determined whether the taxpayer provided proper documentation in support of
                  the penalty abatement.
           4.     Determined whether the decision was based on the criteria for reasonable cause.
           5.     Determined whether the RO obtained managerial approval.
           6.     Determined whether decisions in similar cases were consistent from one office to
                  another.
           7.     Determined whether the taxpayers had representatives, to determine whether
                  taxpayers were treated consistently regardless of whether they had
                  representatives.




3
 The ICS is an IRS automated system used to control and monitor delinquent cases assigned to ROs in the IRS field
offices.



                                                                                                        Page 11
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                                Appendix II


                           Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard Dagliolo, Director
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Cristina Johnson, Lead Auditor
Denise M. Gladson, Auditor
Dorothy Richter, Information Technology Specialist




                                                                                      Page 12
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 13
    Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•     Increased Revenue – Potential; 7,315 abatements affected and $10.8 million (see page 4).
Methodology Used to Measure the Reported Benefit:
For the period May 1, 2003, through April 30, 2004, we identified a population of
33,742 abatements due to reasonable cause for taxpayers that had cases showing on the
Integrated Collection System (ICS).1 From this population, we selected a statistically valid
sample of 226 abatements based on a confidence level of 90 percent, a precision level of
±5 percent, and an expected error rate of 30 percent.
Our review showed that there were 49 (21.68 percent) of the 226 abatements that did not have
supporting documentation available. Although the abatements reviewed were generally proper,
when the supporting documentation is not maintained in the file, we cannot be assured that the
abatements had sufficient supporting documentation.
Therefore, based on the 49 abatements for which supporting documentation could not be
provided, we estimate 7,315 cases may not have appropriate documentation for penalty
abatements (33,742 x 21.68 percent).2
We also calculated the dollar value of possibly affected abatements in the population. However,
we cannot make a conclusion about the entire population because there was 1 very large
abatement over $700,000 in our sample that caused us to consider it separately in our projection
of the dollar value affected. The remainder of our sample abatements (225) ranged from $.01 to
about $35,600. Therefore, our projection of the dollar value of abatements affected in the
population applies to only those abatements in the population that were similar in dollars
(i.e., less than or equal to about $35,600).
We estimate that approximately $10.8 million of abatements granted from May 2003 through
April 2004 could be affected. This is based on the average dollars per abatement without
supporting documentation ($300.18) multiplied by the number of cases in the population that
involved penalties of less than or equal to about $35,600 (33,653 abatements), which totals


1
  The ICS is an Internal Revenue Service (IRS) automated system used to control and monitor delinquent cases
assigned to revenue officers in the IRS field offices.
2
  Using a 95 percent confidence interval, the lower limit for our estimate of potential abatements affected is
5,509 abatements and the upper limit is 9,122 abatements.
                                                                                                          Page 14
    Collection Field Function Penalty Abatements Need Proper Documentation and Coding

approximately $10.1 million. Then, we added back in the 1 large abatement of over $700,000,
without projecting it, for an expected dollar value of approximately $10.8 million.3
Type and Value of Outcome Measure:
•      Reliability of Information – Actual; 46 abatements affected (see page 7).
Methodology Used to Measure the Reported Benefit:
We reviewed a statistically valid sample of 226 abatements based on a confidence level of
90 percent, a precision level of ±5 percent, and an expected error rate of 30 percent.
Our review of the abatements identified 46 instances of incorrect coding. There were
27 instances in which the code for reasonable cause abatements (RC 062) was used incorrectly;
the actions should have been coded with reasons from the other penalty relief categories listed in
Appendix V. Also, there were 19 instances in which either the secondary codes used were not
valid for use with RC 062 or a different secondary code should have been used. Incorrect coding
could lead to unreliable management information regarding abatements due to reasonable cause.




3
    Using a 95 percent confidence interval, the lower limit of the dollar value is approximately $6.6 million.


                                                                                                                 Page 15
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                                    Appendix V


                        Four Categories for Relief From Penalties

Reasonable Cause: This is based on all the facts and circumstances in each situation and allows
the Internal Revenue Service (IRS) to provide relief from a penalty that would otherwise be
assessed. Reasonable cause relief is generally granted when the taxpayer exercises ordinary
business care and prudence in determining his or her tax obligations but is unable to comply with
those obligations.
Statutory Exception: This is tax legislation, such as the Internal Revenue Code, that provides
an exception to a penalty that otherwise would be assessed. The IRS may issue a News Release
or other guidance with instructions for disposition of the penalties.
Administrative Waiver: The IRS may formally interpret or clarify a provision to provide
administrative relief from a penalty that would otherwise be assessed. An Administrative
Waiver may be addressed in a Policy Statement, News Release, or other formal communication
stating that the policy of the IRS is to provide relief from a penalty under specific conditions. An
Administrative Waiver may be necessary when there is a delay by the IRS in printing or mailing
forms, publishing guidance, writing regulations, or other conditions.
Correction of IRS Error: This is any error made by the IRS in computing or assessing tax and
crediting accounts. For example, processing errors include misapplied tax returns, extension
requests, and payments.




                                                                                            Page 16
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                      Appendix VI


                      Request for Adjustment (Form 3870)




                                                                            Page 17
Collection Field Function Penalty Abatements Need Proper Documentation and Coding

                                                                     Appendix VII


                  Management’s Response to the Draft Report




                                                                            Page 18
Collection Field Function Penalty Abatements Need Proper Documentation and Coding




                                                                            Page 19
Collection Field Function Penalty Abatements Need Proper Documentation and Coding




                                                                            Page 20
